                            SOCIAL SECURITY
                            Office of the Inspector General

                                  September 27, 2012


The Honorable Tom Coburn, MD
United States Senate
Russell Senate Office Building, Room 172
Washington, D.C. 20510-3604

Dear Senator Coburn:

In a March 30, 2011 letter, you asked that we conduct a follow-up review to our
April 2008 report on Supplemental Security Income recipients with automated teller
machine withdrawals indicating they are outside the United States.

To ensure the Agency is aware of the information provided to your office, we are
forwarding it a copy of this report.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Special Agent-in-Charge of Congressional Affairs, at
(202) 358-6319.

                                         Sincerely,




                                         Patrick P. O’Carroll, Jr.
                                         Inspector General
Enclosure

cc:
Michael J. Astrue




             SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT
Supplemental Security Income Recipients with
   Automated Teller Machine Withdrawals
          Outside the United States


              A-01-11-01122




              September 2012
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                             Background
OBJECTIVE
Our objective was to assess the Social Security Administration’s (SSA) efforts to identify
and prevent improper payments to Supplemental Security Income (SSI) recipients who
are outside the United States.

BACKGROUND
SSA requires that SSI recipients report events and changes of circumstances that may
affect their eligibility and payment amounts—including periods of absence from the
United States. 1 SSA field offices are required to remind individuals of their reporting
responsibilities during face-to-face and telephone discussions. Furthermore, field
offices are instructed to emphasize these reporting requirements to non-citizens and
foreign-born recipients. 2

Generally, SSI recipients are ineligible for payments once they are absent from the
United States for 30 consecutive days. 3 Those individuals who re-enter the United
States after such an absence are not eligible for payments until they have been in the
United States for 30 consecutive days. 4 When SSA is made aware that an individual
returns to the United States after being absent for 30 days or longer, it can conduct an
unscheduled redetermination to determine the extent of the residency violation. 5

In April 2008, we issued the report on Supplemental Security Income Recipients with
Automated Teller Machine Withdrawals Indicating They Are Outside the United States. 6
From a sample of 250 SSI recipients, we identified 10 recipients (4 percent) who were
outside the United States for longer than 30 days. Based on these sample results, we
1
    20 C.F.R. §§ 416.701 and 416.708(m) and (n).
2
    SSA, POMS, SI 02301.225 C2 (May 12, 2000).
3
  Social Security Act § 1611(f), 42 U.S.C. § 1382(f); See also 20 C.F.R. § 416.215. There are exceptions
for certain blind or disabled children of military parents stationed overseas and students who are
temporarily abroad for study purposes. See also 20 C.F.R § 416.216; SSA, POMS, SI 00501.415
(June 12, 2006) and SI 00501.411 (June 14, 1996).
4
    Social Security Act § 1611(f)(1), 42 U.S.C. § 1382(f)(1); See also, 20 C.F.R. § 416.215.
5
  An unscheduled redetermination is a review of an SSI recipient’s non-medical eligibility factors (that is,
income, resources, and living arrangements) to determine whether the recipient is still eligible for and
receiving the correct SSI payment. This review occurs when a change is reported that affects eligibility or
payment amount and no scheduled redetermination is pending. See also 20 C.F.R. § 416.204(b)(2);
SSA, POMS, SI 02305.001 (October 4, 2007) and SI 02305.022 (October 14, 2011).
6
  SSA OIG, Supplemental Security Income Recipients with Automated Teller Machine Withdrawals
Indicating They Are Outside the United States (A-01-07-17036), April 2008.


SSI Recipients with ATM Withdrawals Outside the United States (A-01-11-01122)                             2
estimated that overpayments totaling approximately $226.2 million to about
40,560 recipients went undetected because SSA was unaware the recipients were
absent from the United States.

On March 30, 2011, we received a request from Senator Coburn to follow up on our
2008 report. (For a copy of the congressional request, see Appendix B.) We were
asked to

     conduct a new analysis to determine the current extent of SSI overpayments to
      individuals outside the United States,
     determine whether SSA took action on the recommendation from our prior audit,
      and
     report the effectiveness of action taken by SSA to reduce SSI payments to
      individuals outside the United States.

To conduct this review, we used the same methodology in selecting our population that
was used in our 2008 audit. Using this same approach, we identified 1.1 million SSI
recipients in current payment status as of February 2011 who had direct deposit bank
information and were foreign-born citizens. We then grouped the records by bank
routing transit number and sampled 250 records from 1 bank with a large proportion of
SSI recipients. Similar to our prior audit, we considered the characteristics and findings
observed for the selected bank to represent any bank providing services to SSI
recipients. For each sampled case, we subpoenaed bank statements for a 24-month
period. For those with foreign activity spanning more than 30 days, we then requested
that SSA contact the individuals to verify whether they were absent from the United
States. 7 (For additional scope and methodology information, see Appendix C.)




7
  Under SSA’s regulations, the agency sends written notice to SSI recipients whenever a determination is
made that more than the correct amount was paid to them. The written notice informs recipients of the
correct and incorrect benefit amounts, that adjustment or recovery of the overpayment is required, and of
the recipients’ right, under certain specified conditions, to request waiver of adjustment or recovery of the
overpayment. See 20 C.F. R. § 416.558.


SSI Recipients with ATM Withdrawals Outside the United States (A-01-11-01122)                              3
                                                           Results of Review
Based on our review of bank                            Chart 1: Sample Results
statements for 250 sample                       Foreign     Improperly           Not
cases                                           Activity       Paid           Verifiable
                                               Under 30      3 Cases
•    3 recipients were                           Days          (1%)
                                                                              34 Cases
                                                                                (14%)
     improperly paid $18,828 in                10 Cases
     SSI payments because                        (4%)
     they were absent from the
     United States for more
     than 30 consecutive days;
•    10 recipients had less than         No Foreign
     30 days of foreign activity           Activity
                                         203 Cases
     on their bank statements; 8           (81%)
•    203 recipients did not have
     any foreign transactions
     on their bank statements; however, 3 of these recipients informed us that they had
     been outside the United States; and
•    34 recipients could not be verified, for various reasons. 9

Table 1 compares our current and prior audits. (For a comparison of the population
data, see Table C-2 in Appendix C of this report.)

                     Table 1: Comparison of Current and Prior Audits
                                            Current Audit Prior Audit                      Difference
    Payment receipt date of population when
                                            February 2011 May 2006                           5 years
    identified
    Sample size                                  250            250                             0%
    Number of recipients outside the United
                                                  3             10                            (70)%
    States for longer than 30 days
    Percent of sample cases outside the
                                                1.2%           4.0%                           (70)%
    United States for longer than 30 days
    Overpayments from sample                   $18,828        $55,767                         (66)%

8
  For these cases, we did not see multiple foreign transactions spanning a consecutive 30-day period to
indicate the individual may have been outside the United States for at least 30 days. We referred three of
these cases to SSA for questionable foreign activity spanning more than 30 days, but the Agency
determined there were no findings.
9
  We were unable to review these 34 recipients because 18 were no longer in pay status, 6 had removed
their direct deposit information for the bank we sampled from, 7 were not available from the bank’s
records, and 3 did not consent to our request of their financial information. In our prior audit, we were
unable to review 5 recipients because 4 died and 1 did not consent to our request of their financial
information.


SSI Recipients with ATM Withdrawals Outside the United States (A-01-11-01122)                           4
CASES WITH FOREIGN ACTIVITY LONGER THAN 30 CONSECUTIVE DAYS

We found three cases with foreign transactions in the form of (1) withdrawals and/or
balance queries from automated teller machines, and (2) international transaction fees
charged by the bank. On average, these individuals were outside the United States for
14 months with an average overpayment of $6,276.

For example, we found numerous foreign transactions on bank statements from
December 2009 through March 2010 and February through August 2011, on behalf of
an SSI recipient from California. Specifically, these transactions originated from Hanoi,
Vietnam, and comprised cash withdrawals from automated teller machines, balance
inquiries, and international transaction fees. The last redetermination SSA scheduled
and processed for this individual was in August 2002. We referred this case to SSA,
which assessed a $5,262 overpayment.

We provided these three cases to SSA in May 2012. As of August 2012, SSA assessed
a partial overpayment on one case and was still reviewing all three for further
development. Our estimate of the overpayments is shown in Table 2.

                          Table 2: Details of Cases Referred to SSA
                   Bank                     Foreign    Total Months
                  Account      State of     Country    Absent From                       Anticipated
      Case       Ownership Residency         Visited  United States 10                  Overpayment
        3          Single      California    Mexico           13                          $10,172
        4          Single      California    Mexico           21                           $3,394
        5          Single      California   Vietnam            7                           $5,262
      Totals                                                  41                          $18,828

CASES WITH FOREIGN ACTIVITY WITHOUT BANK STATEMENT EVIDENCE

We found three cases in which bank statements did not show any evidence that the SSI
recipient was outside the United States; however, we received notification from the
recipient or a family member indicating otherwise.

For example, an SSI recipient from Florida did not have any foreign activity on his bank
statements. Yet we received a letter from him admitting he was in Mexico during the
2-year period of our audit. In June 2012, we forwarded this case to SSA for
development. The Agency requested the recipient provide documentation, but the
recipient never complied. Therefore, SSA suspended payments, beginning
August 2012, for the recipient’s failure to comply with the request for information.




10
     Months of absence indicated are not necessarily consecutive months in all cases.


SSI Recipients with ATM Withdrawals Outside the United States (A-01-11-01122)                          5
SSA ACTION ON PRIOR AUDIT RECOMMENDATION

In our April 2008 audit, we recommended that SSA assess the feasibility of obtaining
electronic bank statement information to include transaction-level data so foreign
transactions may be identified and investigated for possible residency violations. SSA
determined that it was not feasible to use the underlying methodology in our study to
pursue possible residency violations.

Specifically, the Agency responded that

1. It could not select only SSI recipients who were foreign-born United States citizens
   because SSA’s legal counsel had issued opinions that the Agency could not profile
   cases based on the recipient’s country of birth; 11
2. evidence of foreign ATM transactions is not definitive evidence that an SSI recipient
   was outside the country; therefore SSA would need to devote additional resources to
   determine if the recipient was overpaid; and
3. acquisition of transaction-level data could have a huge, labor-intensive workload
   impact on field office personnel and could result in costly financial institution
   transaction fees. 12

SSA’S EFFECTIVENESS IN REDUCING SSI PAYMENTS TO INDIVIDUALS
OUTSIDE THE UNITED STATES

As discussed in our 2008 report, SSA had taken steps to identify residency violations.
These actions included

    matching SSI recipient data with the Department of Homeland Security’s (DHS)
     records of individuals who voluntarily leave or are deported;
    entering into agreements with a number of States regarding the possible use of
     State Medicaid investigators to conduct home visits for SSI recipients; 13


11
  Although our population represented foreign-born SSI recipients, our conclusion and recommendation
were broadly descriptive and did not specifically reference this demographic for SSA to pursue possible
residency violations.
12
  In April 2008, SSA was piloting an initiative known as Access to Financial Institutions (AFI). However,
AFI could not be used to implement the recommendation in our April 2008 report because AFI only
provided account balance summaries; not transaction level data. AFI was implemented nationwide in
June 2011. Under AFI, a third-party vendor obtains bank information for SSI recipients to verify bank
account balances for purposes of determining SSI eligibility. Also, the third-party vendor searches for
undisclosed bank accounts within a certain geographical area based on the SSI recipients’ address. Yet,
the AFI initiative does not provide transactional-level bank information, and therefore, is not sufficient to
identify foreign transactions. We will conduct a separate audit on the AFI program in Fiscal Year 2013.
13
 These States include Arkansas, California, Iowa, Louisiana, Maine, New Hampshire, New Mexico,
Oklahoma, South Dakota, Texas, and Wyoming. SSA, 2007 SSI Annual Report, page 6.


SSI Recipients with ATM Withdrawals Outside the United States (A-01-11-01122)                              6
    conducting periodic redeterminations—generally every 1 to 6 years—to determine
     whether recipients are still eligible to receive SSI payments; and
    completing a project in which the Agency examined the images of SSI checks,
     looking for any that were endorsed by a financial institution outside the United
     States.

In addition, SSA receives an automated alert when an SSI recipient has both a United
States and foreign address in SSA’s system (that is, SSA’s records for the SSI payment
shows a United States address and the recipient is also receiving Old-Age, Survivors
and Disability Insurance [OASDI] benefits from SSA and the OASDI record shows a
foreign address).

In Fiscal Year 2012, SSA contacted DHS regarding its data on arrival and departure
dates for the United States. A data exchange with the Department of Homeland
Security could enable SSA to identify when an SSI recipient leaves and reenters the
United States. We are performing a separate audit to assess the benefit and feasibility
of using the DHS travel data in identifying SSI recipients who travel outside the United
States. 14 We expect to issue the results of our review later this year.




14
  SSA OIG, Usefulness of Department of Homeland Security’s Custom and Border Protection Travel
Data to Identity Supplemental Security Income Recipients Who Are Outside the United States
(A-01-11-01142).


SSI Recipients with ATM Withdrawals Outside the United States (A-01-11-01122)                    7
                                                                  Conclusions
The results of our analysis show that residency violations were 1 percent of our current
sample as compared to 4 percent in our prior audit. Furthermore, SSA has several
processes in place to reduce SSI payments to individuals outside the United States.

Although SSA has taken steps to identify residency violations, the Agency ultimately
relies on individuals to self-report absences from the United States. Because reporting
such absences could make recipients ineligible for SSI payments, some SSI recipients
fail to self-report this information to the Agency.

In addition, our review of the feasibility of SSA obtaining and using DHS travel data will
be completed later this year, and we will forward a copy of the final report to you.




SSI Recipients with ATM Withdrawals Outside the United States (A-01-11-01122)            8
                                            Appendices
APPENDIX A – Acronyms
APPENDIX B – Congressional Request
APPENDIX C – Scope and Methodology




SSI Recipients with ATM Withdrawals Outside the United States (A-01-11-01122)
                                                                          Appendix A

Acronyms
    AFI                Access to Financial institutions

    C.F.R.             Code of Federal Regulations

    DHS                Department of Homeland Security

    OASDI              Old-Age, Survivors and Disability Insurance

    OIG                Office of the Inspector General

    POMS               Program Operations Manual System

    SSA                Social Security Administration

    SSI                Supplemental Security Income

    U.S.C.             United States Code




SSI Recipients with ATM Withdrawals Outside the United States (A-01-11-01122)
                                                                          Appendix B

Congressional Request




SSI Recipients with ATM Withdrawals Outside the United States (A-01-11-01122)     B-1
SSI Recipients with ATM Withdrawals Outside the United States (A-01-11-01122)   B-2
SSI Recipients with ATM Withdrawals Outside the United States (A-01-11-01122)   B-3
                                                                                       Appendix C

Scope and Methodology
To accomplish our objective, we:

•     Reviewed applicable sections of the Social Security Act and other relevant
      legislation, as well as the Social Security Administration’s (SSA) regulations, rules,
      policies, and procedures.

•     Reviewed prior Office of the Inspector General and Government Accountability
      Office reports.

•     Took the following steps, which are the same steps we took in our April 2008 audit.

       Obtained a file of 7.6 million Supplemental Security Income (SSI) recipients in
        current payment status as of February 2011. From this file, we identified
        5.3 million with direct deposit bank information—of those, approximately 1 million
        were foreign-born. We then sorted the population by count of SSI recipients
        under each bank institution (see Table C-1).

       Selected one of the top five banks from our population, Bank A, for further
        review. For audit purposes, we considered the characteristics and findings
        observed for Bank A to be representative of any bank providing services to the
        population of approximately 1 million recipients. Of the 257,512 SSI recipients
        with direct deposit at Bank A, we selected a random sample of 250 for detailed
        analysis.

                                Table C-1: Total Population by Bank
                                                                              Percent of
                                                       Number of             Recipients in
                             Bank                      Recipients             Population
              Bank A                                     257,512                    24%
              Bank B                                     199,504                    19%
              Bank C                                     103,393                    10%
              Bank D                                       44,510                    4%
              Bank E                                       26,298                    3%
              Subtotal (Top 5 Banks)                     631,217                    60%
                                  1
              All Other Banks                            426,665                    40%
              Total (All Banks)                        1,057,882                  100%

1
    Each bank had less than 3 percent of the total population of SSI recipients in our population.


SSI Recipients with ATM Withdrawals Outside the United States (A-01-11-01122)                        C-1
    For each sampled case, we subpoenaed bank statements from Bank A for the
     period September 2009 through August 2011. We examined the transaction
     history section of the bank statements and identified any reference to a foreign
     address on any type of transaction, specifically automated teller machine
     transactions. If a transaction with a foreign address was found, we further
     examined the bank account history to find situations where foreign addresses
     were in the transaction activity for a period of more than 30 days, based on the
     posted transaction dates.

    For each case in which we found foreign activity on the bank statements, we
     requested that SSA’s Office of Operations contact the recipients to confirm they
     were outside the United States for more than 30 days and to asses an
     overpayment, if appropriate.

We conducted our audit in Boston, Massachusetts, between August 2011 and
June 2012. We tested the data obtained in our audit and determined them to be
sufficiently reliable to meet our objective. The entities audited were SSA’s field offices
under the Office of the Deputy Commissioner for Operations. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.

SAMPLE RESULTS

                       Table C-2: Populations and Sample Size
                                                                    Current       Prior
                                                                     Audit        Audit
 Foreign-born SSI recipients with direct deposit                   1,057,882    1,014,185
 Population size (that is, recipients above with direct deposit      257,512      48,734
 at selected bank)
 Percent of recipients with bank accounts at selected bank               24%          5%
 Sample size (that is, recipients sampled from the                        250        250
 population of customers at selected bank)




SSI Recipients with ATM Withdrawals Outside the United States (A-01-11-01122)             C-2
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
